Inspection Report I-96-09
DEPARTMENT OF JUSTICE
OFFICE OF THE INSPECTOR GENERAL
INSPECTIONS DIVISION
IMMIGRATION AND NATURALIZATION SERVICE
DOCUMENT FRAUD RECORDS CORRECTIONS
September 1996
Report Number I-96-09
TABLE OF CONTENTS
Introduction
Results of the Inspection
INS Does Not Act Against
Aliens Who Pay Bribes or Purchase Fraudulent Documents
INS Priorities
INS Resources
INS Does Not Prevent Receipt
of Benefits
Benefits
Records of Corrections
INS Needs to Take Action
Recommendation
APPENDIX I - Management's Response to Draft Report - NOT
INCLUDED IN THIS HYPERTEXT VERSION.
APPENDIX II - Office of the Inspector General's Analysis of
Management's Response - NOT INCLUDED IN THIS HYPERTEXT VERSION.
INTRODUCTION
The Immigration and Naturalization Service (INS) estimates
that approximately 4 million illegal aliens reside in the United
States. For many illegal, undocumented aliens, their principal
goal for continuing residence in the United States is to get
"documented." This imperative has generated two kinds
of document fraud: one is an active, often very open market in
counterfeit, altered, and stolen INS documents.
A small cottage industry has developed in counterfeiting and
selling fake INS documentation. INS has recognized the prolific
trade in fake documentation and has embarked on an ambitious
project to produce a new generation of highly
counterfeit-resistant permanent resident cards, employment
authorization cards, and border crossing cards. The security
features planned for these new cards include microline printing,
holograms, and ultraviolet ink.
There is a second, smaller, but more egregious form of
corruption in which an INS employee is sought out to sell a
legitimate INS document or benefit in return for a bribe or
favor. Often, middlemen will find and deal with corrupt INS
employees to get official INS benefits and documents. The
temptations and rewards for selling these official documents are
great. For example, while it has been estimated that an
employment authorization card may sell for as little as $50, a
border crossing card might sell for as much as $325, a temporary
resident permit for $2,300, and a Green Card for roughly $5,500.
Thus, a corrupt official could gain hundreds or thousands of
dollars per transaction depending on the type of document or
nature of the fraud. There is a host of ways in which an alien
can fraudulently obtain genuine INS documents:
· Pay an INS employee to act favorably on an application
submitted to obtain an INS benefit, document, adjudication or
examination. The resulting document will be genuine, not
counterfeit or altered, and it will, thereafter, be
corroborated in INS' official records.
· Pay an INS employee to steal blank INS documents,
official stamps and ink pads, in order to create INS
documents that, in all respects, will appear to be genuine.
In this regard, INS has often been found to poorly control
these valuable materials. For example, a 1995 OIG inspection
noted inadequate inventory records and security for
controlled documents and for equipment. Thousands of
controlled employment authorization documents were
unaccounted for and equipment was missing. A 1991 OIG
inspection found that lost or stolen stamps were not
immediately reported and controlled documents lacked adequate
safeguards. Also, a 1990 OIG audit disclosed thousands of
unaccounted for certificates of naturalization. [/ DOJ OIG
Inspection Report I-91-13, Security of Controlled Documents
and Stamps in the INS , July 1991; DOJ OIG Inspection Report
I-94-07, INS Employment Authorization Document Program ,
March 1995; and DOJ OIG Audit Report 90-5, Controls Over
Certificates of Naturalization and Citizenship in the INS ,
February 1990 .]
· Pay an INS employee to enter INS' electronic record
systems and make an entry or deletion in one or more of the
alien's records that will reflect an eligible or valid
immigration status if the record system is later queried. In
this regard also, INS' security with respect to safeguarding
against unauthorized access to these systems has been found
to be lax in the past. One 1994 and two 1995 inspections of
INS data bases (SAVE, EAD and NAILS) found that controls over
data entry and supervisory oversight were weak. A 1993 audit
report discussed a specific case of employees fraudulently
creating or changing 1,700 records in INS' Central Index
System (CIS). [/ DOJ OIG Inspection Report I-92-20,
Systematic Alien Verification For Entitlements Program in the
INS , June 1995; DOJ OIG Inspection Report I-94-07,
Employment Authorization Document Program , March 1995; DOJ
OIG Inspection Report I-93-08, INS National Automated
Immigration Lookout System II , March 1994; DOJ OIG Audit
Report 93-11, Data Base Access Controls at the INS , March
1993; and DOJ OIG Audit Report 93-17, Computer Risk Analyses
and Contingency Planning at the INS , September 1993 .]
The Department of Justice investigates and prosecutes persons
engaged in document fraud. In 1994, for example, a Deputy
Assistant District Director for Examinations in INS pleaded
guilty to conspiracy to commit bribery for accepting up to
$70,000 from a middleman in exchange for providing legitimate INS
Green Cards and for making false entries in INS' CIS regarding
the aliens' entitlement to remain in the United States. About 50
aliens benefited from the scheme. In 1994, an INS supervisory
mail clerk was charged with conspiracy, bribery, and visa fraud.
The clerk accepted thousands of dollars in return for entering
fraudulent biographical data on over 300 aliens into CIS. The
clerk signed a plea agreement admitting guilt to one count of
bribery. In 1991, four INS employees and several document brokers
were convicted of operating a multi-million dollar bribery scheme
that supplied various INS documents to illegal aliens. More than
400 aliens were identified as participants.
When such investigations are successful, the government
usually targets for priority prosecution the vendors of the
documents, the middlemen who paid bribes, and the corrupt INS
employees who accepted bribes. If the vendors and middlemen are
illegal aliens, deportation proceedings are usually initiated
against them. But what about the other aliens who profited from
the crime, who provided the bribe money, and who have received as
a result of the crime INS benefits or documents? The purpose of
this inspection was to determine what actions INS takes against
these aliens who have obtained immigration documents by
fraudulent means.
The report that follows is the product of our discussions and
inquiries at INS headquarters with officials from the
Investigations, Intelligence, and Detention and Deportation
Divisions of the Office of Enforcement; the Adjudications and
Nationality, Inspections, Service Center Operations, and Records
Divisions of the Office of Examinations; the Enforcement Branch
of the Office of Field Operations; the Data Systems Division of
the Office of Information Resource Management; the Office of
Internal Audit; and the Office of General Counsel. To extend our
review to include field activities, we visited the INS New York
District Office where we interviewed investigations and
examinations personnel. We also interviewed OIG investigators who
investigate corrupt INS employees.
To assess INS' actions on aliens identified as customers in
document fraud schemes, we chose to study only a portion of all
possible fraudulent activities. We looked at document fraud cases
involving schemes that depended for their success upon the
corruption of INS employees. Thus, the focus of this review is on
frauds involving the purchase of genuine INS documents from INS
employees, and those involving the payment of a bribe (either
directly or through a middleman) to an INS employee in return for
favorable action. Our work was selective, and limited in this way
for two reasons. First, this approach enabled us to take
advantage of already existing data that could be tracked to a
useful conclusion. Second, while the purchase of stolen and
counterfeit documents may be serious, far more serious are
efforts to corrupt INS employees and compromise INS' official
records with false information. The greater enforcement effort is
appropriately directed toward the more serious offense.
As a general rule, most document fraud is uncovered,
investigated and combatted by INS, without much help from other
law enforcement agencies. Most document fraud cases will not
involve a corrupt INS employee. Cases that do involve INS
employee corruption are the primary responsibility of the OIG,
although either INS or the Federal Bureau of Investigation may
also participate in such investigations.
When the OIG Investigations Division conducts an employee
corruption investigation that identifies aliens who have
participated and benefited from a document fraud scheme, the
Division forwards any information that it has developed on the
aliens to INS for action. The OIG field office investigating the
case also usually shares such information with the appropriate
INS field office during the investigation.
RESULTS OF THE
INSPECTION
INS DOES NOT ACT
AGAINST ALIENS WHO PAY BRIBES OR PURCHASE FRAUDULENT DOCUMENTS
INS made little effort to locate or deport aliens who
were the customers and beneficiaries of document fraud
schemes. INS did not take action to preclude such aliens from
receiving benefits for which their fraud had made them
eligible; did not act to delete, correct, or flag fraudulent
entries in its automated data bases and information systems;
and had no provision for placing any code, flag, or alert in
INS records to warn INS officers should they encounter these
same aliens in the future.
In our discussions with INS officials and employees in
headquarters and in the field, we learned that INS investigators
usually do not attempt to locate aliens identified as
participants in fraud schemes, and neither INS investigators nor
other INS officers initiate deportation proceedings against these
aliens. INS officers cited a number of reasons for not pursuing
these aliens, including INS investigative priorities, a shortage
of detention space, and an overloaded and under-funded
deportation system. INS employees expressed frustration about the
deportation process and doubted that these aliens would actually
be deported.
Based on OIG case tracking records and our examination of
individual investigative files, we were able to establish that,
in fiscal year 1994, the OIG completed 330 cases involving INS.
The Investigations Division's data base and case tracking system
did not include a specific "document fraud case"
identifier. Consequently, we searched the data base for all
listings involving the statutory offenses usually charged in
document fraud cases. With these descriptions as a guide, we
identified 411 cases closed between January 1991 and June 1995
that might involve document fraud and fraudulent records entries.
[/ In the three fiscal years, 1993 through 1995, INS
investigators completed 17,632 fraud cases. However, INS
investigative case files are maintained in each district and
there is no INS-wide data base that reports how many or which of
these cases involved document fraud. One reason for selecting the
approach used in this study was that it enabled us to rely on an
OIG case tracking system with which we were familiar as an aid to
identifying document fraud cases and retrieving investigative
reports and files for study. Even then, anecdotal recollections
were a significant factor in our ability to find suitable
illustrative cases.] From this beginning, we winnowed
the sample down to 36 case files. These cases had specific
identifying information on over 2,400 aliens who had benefited
from document fraud schemes. Included in this group were several
that had hundreds of aliens identified by name or A-number. [/ An
A-number is the unique numeric identifier assigned to an alien
and is used by INS to maintain its records of all information
relative to that individual.] In New York, we reviewed the INS
documentation for 3 of these cases, 2 of which involved almost
600 aliens who had participated as customers and beneficiaries of
fraud schemes. We found no evidence that INS had attempted to
pursue any of the aliens who benefited from the document fraud.
INS Priorities - INS has
formal investigative priorities. It gives highest level priority
to activities that affect control of legal immigration and the
restriction of illegal immigration to the United States. Criminal
fraud schemes are high priority cases. Vendors and middlemen
involved in criminal fraud are prosecuted and, when they are
illegal aliens, deportation proceedings are usually initiated
against them.
The aliens who pay the bribes or knowingly purchase a false or
stolen document are beneficiaries of the fraud scheme, but are
not the promoters or facilitators of the scheme, and therefore,
are relegated to a lower INS priority level. They are usually not
prosecuted, [/ The decision whether to prosecute, it should be
noted, is not INS', but is reserved to prosecutors elsewhere in
the Department. On the other hand, the exercise of prosecutorial
discretion could well be affected if INS made clear that
prosecuting recipients of false or stolen documents was a high
priority matter.] and INS spends only a minimal effort on them.
INS Investigations Division managers at INS Headquarters and
investigations managers at the New York District told us that
pursuit of these aliens was at the bottom of their set of
priorities. The New York District Director said he does not have
sufficient manpower to pursue these aliens and still meet the
other, higher INS national investigative priorities such as
criminal aliens and employer sanctions.
Neither investigators nor other INS officers initiate
deportation proceedings against these aliens. INS examinations
officers also can initiate deportation proceedings against
aliens. However, examinations managers in both Headquarters and
the New York District Office emphasized the INS-wide pressure to
process aliens' benefit applications as quickly as possible to
provide good customer service. The examinations managers were
reluctant to slow down the processing of benefit applications by
diverting resources to initiate deportation proceedings against
these aliens.
INS Resources - We
recognize that resources have been a constraint. However, while
continuing to focus on its priorities, INS needs to distribute
its investigative resources to provide at least some coverage to
aliens who benefit as customers of fraud schemes. Further, INS
examinations managers should balance the need to prepare
deportation documentation against the processing of benefit
applications. INS is receiving substantial amounts of new
resources, some of which could be devoted to pursuing and
processing these fraud customers. Failure to place these aliens
in deportation proceedings directly undermines the credibility of
INS' commitment to enforce all immigration laws.
INS managers of both the Investigations and the Adjudications
and Nationality Divisions cited a lack of clerical support to
prepare the documentation necessary to initiate deportation
proceedings. New York investigations and examinations managers
also cited the lack of clerical support as a reason for not
initiating deportation proceedings against the beneficiaries of
document fraud.
Moreover, INS managers at both Headquarters and New York cited
insufficient detention space to hold potential detainees. They
saw no point in pursuing aliens and initiating deportation
proceedings if the aliens could not be detained. The managers
stated that unless the aliens were detained they would probably
not be deported. Our recent inspection report on deportation
supported their contention. [/ DOJ OIG Inspection Report I-96-03,
Deportation of Aliens After Final Orders Have Been Issued , March
1996.] The report noted that unless aliens are detained, INS has
little success in deporting them. In that inspection, we found
that INS removed almost 94 percent of the detained aliens but was
able to remove only about 11 percent of nondetained aliens.
INS investigations and examinations managers at Headquarters
said that they saw little point in adding to the high number of
aliens already in deportation proceedings -- over 464,000 at the
end of fiscal year 1994.
Finally, almost all of the investigators and examiners
interviewed expressed a general pessimism about the value of
placing aliens in deportation proceedings. They noted that even
if deportation proceedings were initiated against aliens, aliens
are afforded several levels of administrative legal review.
Obtaining deportation orders is far from certain. Further, even
if deportation orders are obtained, they are ineffective unless
the aliens have been detained. From the INS managers'
perspective, given the lack of actual deportations, they find it
hard to justify the effort and resources necessary to put the
aliens who participated as customers into deportation
proceedings.
With respect to insufficient detention space, the large number
of aliens already the subject of deportation proceedings, the
uncertainty of the outcome of the deportation process, and the
low number of actual deportations, we can understand the
pessimism of INS employees.
In our judgment, the reasons INS officers gave for not
pursuing aliens may have some merit, but do not justify INS' lack
of action against most aliens who pay a bribe or knowingly buy
false or stolen documents. INS should utilize the identifying
information developed in document fraud investigations and
attempt to locate and deport these aliens.
INS Does Not Prevent
Receipt of Benefits
INS does not delete or correct fraudulent entries to its
electronic data bases and there are no provisions for placing
codes or flags into INS data bases to alert INS officers who may
come into contact with these aliens in the future. If the aliens
are not removed from the United States, if fraudulent record
system entries are not corrected and alerts posted to an INS data
base, and if fraudulently-obtained genuine INS documents are not
reclaimed, the aliens not only retain their fraudulently-obtained
immigration rights, but also may be able to obtain additional
benefits.
Benefits - The benefits obtained
from INS could include the rights to live in the United States as
a permanent resident, to leave and reenter the United States, to
work, to petition to bring in relatives as lawful permanent
residents, and to citizenship.
In addition to the benefits obtained from INS, there are
possible financial costs to the taxpayer. Federal, state, and
local agencies use an entitlement verification system, which
interfaces with an INS data base to determine an alien's
eligibility to receive payments from many benefit programs.
Although illegal aliens are not eligible for most Federal benefit
programs, an alien could receive these benefits if the alien's
status has been fraudulently entered in the INS data base, as
could the alien's spouse and children. Programs requiring this
verification include Supplemental Security Income (SSI), Aid to
Families With Dependent Children (AFDC), Food Stamps,
unemployment compensation, public housing assistance, financial
assistance for higher education, and employment training under
the Job Training Partnership Act.
It is not known how many illegal aliens are receiving benefits
to which they are not entitled. The following data shows the
potential costs of not ensuring accurate information in INS' data
bases. In 1994, the average monthly benefit amount for SSI
payments was $325 for Federal payments with up to $166 in state
supplements. For AFDC in fiscal year 1994, average monthly
payments per family ranged from $120 to $735. In fiscal year
1994, the average monthly value of food stamps per person was
about $69. In 1994, average state unemployment
insurance benefits per week ranged between $118 and $266.
Thus, depending on the state of residence, an illegal alien with
a wife and two children who was receiving all of the above
benefits could be getting between $1,193 and $2,566 per month. [/
Annual Statistical Supplement to the Social Security Bulletin,
1995 .]
The costs to U.S. taxpayers of aliens who have obtained their
status fraudulently, or of the illegal alien population as a
whole, are unknown. Illegal aliens generate revenues (taxes) and
these revenues offset some of the costs (benefits) that Federal,
state, and local governments
incur. Estimates of the national net costs of illegal aliens
vary widely. Recent estimates are between $2 billion and $19
billion per year. [/ GAO Report GAO/HEHS-95-133, Illegal Aliens;
National Net Cost Estimates Vary Widely , July 1995 .]
Once the document fraud or fraudulent data entry has been
committed, the alien and family members can obtain benefits for
as long as they remain in the country. If the alien later
petitions to bring a family member into the United States as a
lawful permanent resident, the original fraud will be compounded.
Records Corrections -
INS employees have noted the need to delete or correct fraudulent
records, particularly in the CIS. The CIS is the INS-wide
electronic data base that contains data on all aliens who have
been assigned A-numbers since 1960.
New York investigators had sought permission from Headquarters
to delete fraudulent entries from CIS, but this request was
denied. Personnel in the Records Division, who are responsible
for maintenance of the CIS, told us that they believed fraudulent
entries should not be deleted because it was important to
maintain a history of what had occurred. They also feared that
deletion of an entire fraudulently-created record would make it
easier for an unscrupulous employee to assign the same A-number
to another alien without being detected.
The Records Division staff also has received requests from
field officers, both investigators and examiners, to place alerts
in CIS to indicate fraud. In several instances, field officers
created and recorded their own entries into CIS. The entries were
inappropriately placed in data fields that have specific
alpha/numeric criteria and, as invalid entries, they created
problems within the data base. Consequently, the records staff
instructed field officers not to make these entries. To date, the
records staff has been unable to offer them an alternative means
of placing an alert in the system.
In 1992, OIG investigators developed and provided the INS
Investigations Division with about 600 names and A-numbers of
aliens implicated as customers in two high profile
investigations. In a memorandum dated December 14, 1992, the
Associate Commissioner for Enforcement stated that the
Investigations Division would take the lead in developing a
coding strategy for these two cases and requested that the Office
of Examinations develop procedures to be followed should these
people seek additional benefits. However, at the time of our
inspection, three years later, no coding strategy or procedures
had been developed for these two cases.
In 1994, another high profile investigation resulted in the
OIG providing over 1,000 names and A-numbers of aliens to the INS
Investigations Division. A special code (SDF for Suspected
Document Fraud) was developed to be entered into the CIS
identifying individuals involved in this fraud. Procedures for
the use of the code were never developed and, therefore, no
instruction was given to field offices. Ultimately, the SDF code
was not used in the CIS.
In summary, INS employees have noted the need for a coding
strategy for fraud cases. Headquarters personnel have attempted
twice to develop codes in response to specific investigations.
Field personnel have attempted to place alerts in CIS and have
requested permission to delete fraudulent entries. Although there
is recognition at INS Headquarters and in the field that some
kind of flagging system is needed, so far no INS entity has been
assigned responsibility to develop and implement a coding
strategy.
INS Needs To Take Action
In a June 1995 report, the Congressional Task Force on
Immigration Reform estimated that 4 million illegal aliens were
in the United States and that the number was growing by 300,000
to 400,000 every year. [/ Congressional Task Force on Immigration
Reform, Report to the Speaker, The Honorable Newt Gringrich ,
June 29, 1995.] In Fiscal Year 1995, INS deported 51,000 aliens.
The disparity between the number of illegal aliens arriving and
those deported suggests that, unless INS takes more action
against illegal aliens already in the country, the illegal alien
population will continue to grow dramatically. The Task Force
report cites studies that show benefits received by illegal
aliens cost Federal and state agencies billions of dollars per
year. This drain on tax dollars can be reduced if illegal aliens,
such as those identified during fraud investigations, are removed
from the United States.
Aliens identified as participants in fraud investigations are
part of the illegal alien population, and INS needs to take
action against illegal aliens about whom it has information.
If INS does not take action against these aliens, it not only
misses an opportunity to take advantage of investigative leads,
it is not fully discharging its responsibility for this segment
of the illegal alien population.
INS' failure to take action against these aliens undermines
the credibility of INS' enforcement. It must be made clear
throughout the immigrant communities that aliens engaged in
fraudulent schemes to obtain benefits to which they are not
entitled will risk official penalties. If other aliens see that
there are no penalties, more aliens may be tempted to circumvent
the system.
INS' failure to delete or correct fraudulent entries or to
flag system records also weakens the integrity of the benefit
granting process because aliens who have a fraudulently obtained
status may obtain additional benefits.
Illegal immigration, with its attendant problems, has been a
principal reason for the substantial increase in INS resources
over the last several years. These increases should enable INS to
locate and remove at least some of the aliens identified as
participating in fraud schemes and to take actions that prevent
others from receiving benefits. Ordinarily, we would make
recommendations concerning locating and deporting aliens known to
have participated as customers in criminal fraud schemes. In this
instance, the recommendation seems obvious: INS needs to take
more action to locate and deport these aliens. However, as a
first step, until they can be removed, their status must be
accurately reflected in INS' data bases. This action will at
least deny them some of the benefits of their document fraud and
of their complicity in the bribery of INS employees.
RECOMMENDATION
The Inspections Division recommends that the Commissioner,
Immigration and Naturalization Service ensure that INS takes
action to:
1. Correct fraudulent data base entries, and develop a
flagging system that will alert INS personnel to alien
participation in fraud schemes.
#####